No. 20-1158

 

 

In the Supreme Court of the United States

THE NORTH AMERICAN MISSION BOARD OF THE
SOUTHERN BAPTIST CONVENTION, INC.,

Petitioner,
v.

WILL MCRANEY,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

MOTION FOR LEAVE TO FILE AND
BRIEF FOR AMICI CURIAE THE ETHICS
& RELIGIOUS LIBERTY COMMISSION OF THE
SOUTHERN BAPTIST CONVENTION; THE
CHURCH OF JESUS CHRIST OF LATTER-DAY
SAINTS; THE NATIONAL ASSOCIATION OF
EVANGELICALS; THE LUTHERAN CHURCH —
MISSOURI SYNOD; CHURCH OF GOD IN
CHRIST, INC.; CHRISTIAN LEGAL SOCIETY;
JEWISH COALITION FOR RELIGIOUS LIBERTY;
AND THE ISLAM & RELIGIOUS FREEDOM
ACTION TEAM OF THE RELIGIOUS FREEDOM
INSTITUTE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the brief contains
5,862 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

The motion contained within this publication has 205 words.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 18, 2021.

 

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
